                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00026-251




       Community Based Outpatient 

             Clinic Reviews 

                    at 

       Edward Hines, Jr. VA Hospital 

                Hines, IL 





July 22, 2013

                      Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                        CBOC Reviews at Edward Hines, Jr. VA Hospital



                                           Glossary
                        C&P      credentialing and privileging
                        CBOC     community based outpatient clinic
                        CDC      Centers for Disease Control and Prevention
                        EHR      electronic health record
                        EOC      environment of care
                        FPPE     Focused Professional Practice Evaluation
                        FY       fiscal year
                        MH       mental health
                        NC       noncompliant
                        NCP      National Center for Health Promotion and
                                 Disease Prevention
                        OIG      Office of Inspector General
                        PM       preventive maintenance
                        VHA      Veterans Health Administration
                        VISN     Veterans Integrated Service Network
                        WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                      CBOC Reviews at Edward Hines, Jr. VA Hospital



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 12 Director Comments .............................................................................                     11

  B. Edward Hines, Jr. VA Hospital Director Comments...........................................                                  12

  C. OIG Contact and Staff Acknowledgments .........................................................                             15

  D. Report Distribution .............................................................................................           16





VA OIG Office of Healthcare Inspections
                                                    CBOC Reviews at Edward Hines, Jr. VA Hospital



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of April 9, 2013.

The review covered the following topic areas:

	   WH

	   Vaccinations

	   C&P

	   EOC

	   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs (see Table 1).

     VISN       Facility             CBOC Name                     Location
                Edward Hines, Jr. VA Kankakee                      Bourbonnais, IL
      12
                Hospital             Oak Lawn                      Oak Lawn, IL
                                     Table 1. Sites Inspected

Review Results: We made recommendations in four review areas.

Recommendations:       The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

	 Ensure that the ordering provider or surrogate is notified of normal and abnormal
   cervical cancer screening results within the required timeframe and that notification
   is documented in the EHR.

	 Ensure that patients with normal and abnormal cervical cancer screening results are
   notified of results within the required timeframe and that notification is documented
   in the EHR.

	 Ensure that clinicians administer pneumococcal vaccinations when indicated.

	 Ensure that all specified medical equipment receive PM according to local policy at
   the Kankakee CBOC.



VA OIG Office of Healthcare Inspections                                                        i
                                             CBOC Reviews at Edward Hines, Jr. VA Hospital


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A–B,
pages 11–14, for the full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                 JOHN D. DAIGH, JR., M.D.
                                                Assistant Inspector General for
                                                     Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                 ii
                                                            CBOC Reviews at Edward Hines, Jr. VA Hospital



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                               CBOC Reviews at Edward Hines, Jr. VA Hospital


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                   2
                                                                                                                  CBOC Reviews at Edward Hines, Jr. VA Hospital



                                                                    CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facilities’ oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

 VISN                Parent Facility                     CBOC Name                   Locality6         Uniques FY 20127        Visits FY 20128        CBOC Size9
                                                            Aurora                 Urban                      4,086                 16,915              Mid-Size
                                                       (North Aurora, IL)
                                                             Elgin                 Urban                      3,641                 16,372              Mid-Size
                                                          (Elgin, IL)
                                                             Joliet                Urban                      5,109                 25,390                Large
                                                          (Joliet, IL)
    12      Edward Hines, Jr. VA Hospital
                                                          Kankakee                 Rural                      2,833                 13,613              Mid-Size
                                                       (Bourbonnais, IL)
                                                            Lasalle                Rural                      3,352                 25,123              Mid-Size
                                                           (Peru, IL)
                                                          Oak Lawn                 Urban                      5,564                 21,592                Large
                                                        (Oak Lawn, IL)
                                                                        Table 2. Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
  http://vssc.med.va.gov

9
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,

September 11, 2008, the size of the CBOC facility is categorized as very large (>10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (<1,500). 



VA OIG Office of Healthcare Inspections                                                                                                                            3
                                                         CBOC Reviews at Edward Hines, Jr. VA Hospital



                    WH and Vaccination EHR Reviews 

                     Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review elements marked as noncompliant needed
improvement. Details regarding the findings follow the table.

            NC                                       Areas Reviewed
                              Cervical cancer screening results were entered into the
                              patient’s EHR.
             X                The ordering VHA provider or surrogate was notified of results
                              within the defined timeframe.
             X                Patients were notified of results within the defined timeframe.
                              Each CBOC has an appointed WH Liaison.
                              There is evidence that the CBOC has processes in place to
                              ensure that WH care needs are addressed.
                                              Table 3. WH

There were 34 patients who received a cervical cancer screening at the
Edward Hines, Jr. VA Hospital’s CBOCs.

Provider Notification of Normal and Abnormal Cervical Cancer Screening Results. VHA
requires that normal cervical cancer screening results must be reported to the ordering
provider or surrogate within 30 calendar days of the report being issued. Abnormal
cervical cancer screening results must also be reported to the ordering provider or
surrogate within 5 business days. These notifications must be documented in the
EHR.13 We reviewed the EHRs of 27 patients who had normal screening results and
did not find documentation in 9 records that the ordering provider or surrogate was
notified within 30 calendar days. We also reviewed the EHRs of seven patients with

10
   World Health Organization. Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality 

Web-based report. 

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

13
   VHA Handbook 1330.01. 



VA OIG Office of Healthcare Inspections                                                                  4
                                                             CBOC Reviews at Edward Hines, Jr. VA Hospital


abnormal results and did not find documentation in two of the records that the
interpreting physicians notified the ordering provider or surrogate within 5 business
days.

Patient Notification of Normal and Abnormal Cervical Cancer Screening Results. VHA
requires that normal cervical cancer screening results must be communicated to the
patient in terms easily understood by a layperson within 14 days and from the date of
the pathology report becoming available. Abnormal results must also be communicated
to the patient within 5 business days. These notifications must be documented in the
EHR.14 We reviewed the EHRs of 27 patients who had normal cervical screening
results and determined that 10 patients were not notified within the required 14 days
from the date the pathology report became available. We also reviewed the EHRs of
seven patients who had abnormal cervical screening results and determined that four
patients were not notified within the 5 business days as required.

Recommendations

1. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of normal and abnormal cervical cancer screening results within
the required timeframe and that notification is documented in the EHR.

2. We recommended that managers ensure that patients with normal and abnormal
cervical cancer screening results are notified within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of
vaccinations.15 The NCP provides best practices guidance on the administration of
vaccinations for veterans. The CDC states that although vaccine-preventable disease
levels are at or near record lows, many adults are under-immunized, missing
opportunities to protect themselves against diseases such as tetanus and
pneumococcal infections.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
that have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review element
marked as noncompliant needed improvement. Details regarding the finding follow the
table.
14
     VHA Handbook 1330.01. 

15
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009. 



VA OIG Office of Healthcare Inspections                                                                        5
                                                              CBOC Reviews at Edward Hines, Jr. VA Hospital


          NC                                       Areas Reviewed
                       Staff screened patients for the tetanus vaccination.
                       Staff administered the tetanus vaccination when indicated.
                       Staff screened patients for the pneumococcal vaccination.
           X           Staff administered the pneumococcal vaccination when indicated.
                       Staff properly documented vaccine administration.
                       Managers developed a prioritization plan for the potential occurrence of
                       vaccine shortages.
                                              Table 4. Vaccinations

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one.16 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of two patients with pre-existing
conditions who received their first vaccine prior to the age of 65. We did not find
documentation in any of the EHRs indicating that their second vaccinations had been
administered.

Recommendation

3. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.




16
     Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/


VA OIG Office of Healthcare Inspections                                                                  6
                                                         CBOC Reviews at Edward Hines, Jr. VA Hospital



                                 Onsite Reviews 

                          Results and Recommendations 

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                               Kankakee                          Oak Lawn
     VISN                                         12                                12
     Parent Facility                  Edward Hines, Jr. VA Hospital     Edward Hines, Jr. VA Hospital

     Types of Providers              Licensed Clinical Social Worker   Licensed Clinical Social Worker
                                           Nurse Practitioner                Nurse Practitioner
                                              Psychologist                      Psychologist

     Number of MH Uniques, FY                     449                                574
     2012
     Number of MH Visits, FY                     2,459                              2,556
     2012
     MH Services Onsite                           Yes                                Yes
     Specialty Care Services                      None                              None
     Onsite
     Ancillary Services Provided           Electrocardiogram                  Electrocardiogram
     Onsite                                   Laboratory                         Laboratory
     Tele-Health Services               Care Coordination Home             Care Coordination Home
                                              Telehealth                         Telehealth
                                                  MH                                 MH
                                                      17
                                                MOVE                               MOVE
                                            Retinal Imaging                    Retinal Imaging
                                         Table 5. Characteristics




17
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                                  7
                                                   CBOC Reviews at Edward Hines, Jr. VA Hospital


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.18 Table 6 shows the areas reviewed for this topic.

           NC                                     Areas Reviewed
                         Each provider’s license was unrestricted.
                                         New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale
                         for conclusions reached for granting licensed independent
                         practitioner privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

18
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                       8
                                                CBOC Reviews at Edward Hines, Jr. VA Hospital


All CBOCs were compliant with the review areas; therefore, we made no
recommendations.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOC identified as noncompliant needed improvement. Details regarding the finding
follow the table.

        NC                                     Areas Reviewed
                    The CBOC was Americans with Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information Technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.
                    Safety needle devices were available for staff use (e.g., lancets,
                    injection needles, phlebotomy needles).
                    The CBOC was included in facility-wide EOC activities.



VA OIG Office of Healthcare Inspections                                                    9
                                                        CBOC Reviews at Edward Hines, Jr. VA Hospital


       NC                              Areas Reviewed (continued)
     Kankakee        Medical equipment checked according to local policy.
                                              Table 7. EOC

Medical Equipment. Local policy requires that specified non-life support equipment
receive scheduled PM.19 During our inspection of the Kankakee CBOC, we found
equipment items, such as examination tables and electronic thermometers that had not
received PM according to policy.

Recommendation

4. We recommended that managers ensure that all specified medical equipment
receive PM according to local policy at the Kankakee CBOC.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.20 Table 8 shows the areas
reviewed for this topic.

        NC                                       Areas Reviewed
                      There was a local medical emergency management plan for this
                      CBOC.
                      The staff articulated the procedural steps of the medical emergency
                      plan.
                      The CBOC had an automated external defibrillator onsite for cardiac
                      emergencies.
                      There was a local MH emergency management plan for this CBOC.
                      The staff articulated the procedural steps of the MH emergency
                      plan.
                                  Table 8. Emergency Management

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




19
   Hines VA Hospital Policy Memorandum 578-08-138A-048 (R-5), Preventive Maintenance Program, 

May 4, 2012. 

20
   VHA Handbook 1006.1. 



VA OIG Office of Healthcare Inspections                                                           10
                                                   CBOC Reviews at Edward Hines, Jr. VA Hospital
                                                                                    Appendix A

                           VISN 12 Director Comments


               Department of
               Veterans Affairs                                 Memorandum


       Date:           June 25, 2013

       From:           Director, VISN 12 (10N12)

       Subject:        CBOC Reviews at Edward Hines, Jr. VA Hospital

       To:             Director, Chicago Healthcare Inspections Division (54CH)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

      1. Attached please find the CBOC Review draft response from the Edward
         Hines, Jr. VA Hospital.
      2. I have reviewed the draft report for the Edward Hines, Jr. VA Hospital
         and concur with the finding and recommendations.
      3. I appreciate the Office of Inspector General’s efforts to ensure high
         quality of care to veterans at the Edward Hines, Jr. VA Hospital.




       For and in the absence of
       Jeffrey A. Murawsky, MD




VA OIG Office of Healthcare Inspections                                                      11
                                                      CBOC Reviews at Edward Hines, Jr. VA Hospital
                                                                                       Appendix B

         Edward Hines, Jr. VA Hospital Director Comments



                Department of
                Veterans Affairs                                   Memorandum


       Date:              June 25, 2013

       From:              Director, Edward Hines, Jr. VA Hospital (578/00)

       Subject:           CBOC Reviews at Edward Hines, Jr. VA Hospital

       To:                Director, VISN 12 (10N12)

       1. I have reviewed the draft report for the Hines VA Medical Center and
          concur with the findings and recommendations.
       2. I appreciate the opportunity for this review as it provides for a continual
          process to improve the care to our veterans.




       (original signed by:)
       Joan M. Ricard, FACHE




VA OIG Office of Healthcare Inspections                                                         12
                                                CBOC Reviews at Edward Hines, Jr. VA Hospital


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of normal and abnormal cervical cancer screening results within
the required timeframe and that notification is documented in the EHR.

Concur

Target date for completion: August 31, 2013

View Alert for normal and abnormal cervical cancer screening is a mandatory alert. The
process was revised to save all view alert receipt notifications to providers from 90 days
to 3 years to obtain the historical record. Provider notification receipt will be monitored
to ensure that 90% compliance is achieved and sustained.

2. We recommended that managers ensure that patients with normal and abnormal
cervical cancer screening results are notified within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: July 31, 2013

Facility policy has been updated to include abnormal ASCUS HPV within 5 days versus
14 days. Training and education of staff on the policy update was completed on
June 18, 2013. Monthly tracking of normal and abnormal results was implemented on
December 1, 2012 with routine EHR auditing. Quarterly reporting of abnormal and
normal cervical cancer screening results is a new agenda item for Women’s Health
Committee starting July 15, 2013. Actions will be documented when target of 90% is
not obtained.

3. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

Concur

Target date for completion: August 31, 2013

The vaccination clinical reminders will be updated to ensure pneumococcal vaccinations
are administered according to CDC guidelines for age and diagnosis. Medical record
audits will be conducted to ensure compliance of administration of pneumococcal
vaccinations until 90% compliance is achieved and sustained.


VA OIG Office of Healthcare Inspections                                                   13
                                            CBOC Reviews at Edward Hines, Jr. VA Hospital


4. We recommended that managers ensure that all specified medical equipment
receive PM according to local policy at the Kankakee CBOC.

Concur

Target date for completion: June 25, 2013

The manufacturer guidelines for non-life support equipment was reviewed, and the
Hospital Safety Management Committee decided to exclude battery operated devices in
the preventative maintenance program. The hospital policy was updated to indicate
battery operated devices do not require preventative maintenance.




VA OIG Office of Healthcare Inspections                                               14
                                                 CBOC Reviews at Edward Hines, Jr. VA Hospital
                                                                                  Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Wachita Haywood, RN, Team Leader
Contributors            Sheila Cooley, MSN, RN
                        LaNora Hernandez, MSN-Edu, RN
                        Laura Spottiswood, MPH
Other                   Debra Boyd-Seale, PhD
Contributors            Judy Brown, Program Support Assistant
                        Shirley Carlile, BA
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                    15
                                              CBOC Reviews at Edward Hines, Jr. VA Hospital
                                                                               Appendix D

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 12 (10N12)
Director, Edward Hines, Jr. VA Hospital (578/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Daniel Coats, Joe Donnelly, Richard J. Durbin, Mark Kirk
U.S. House of Representatives: Danny K. Davis, Robin Kelly, Bobby L. Rush,
 Peter J. Visclosky


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                 16
